Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




      REVIEW OF MEDICARE
     OUTPATIENT BILLING FOR
       SELECTED DRUGS AT
    ESSENTIA HEALTH DULUTH




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Lori A. Ahlstrand
                                               Regional Inspector General

                                                       August 2012
                                                      A-09-12-02021
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services administers the program.

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains detail regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered.

Essentia Health Duluth (Essentia) is an acute-care hospital located in Duluth, Minnesota. Based
on data analysis, we reviewed $1,261,769 in Medicare payments to Essentia for 131 line items
for injections of selected drugs that Essentia billed to Medicare during our audit period
(January 1, 2008, through April 30, 2011). These line items consisted of injections for baclofen,
infliximab, trastuzumab, rituximab, bortezomib, immune globulin, bevacizumab, epoetin alfa,
and paclitaxel.

OBJECTIVE

Our objective was to determine whether Essentia billed Medicare for injections of selected drugs
in accordance with Federal requirements.

SUMMARY OF FINDINGS

For 87 of the 131 line items reviewed, Essentia did not bill Medicare in accordance with Federal
requirements. Specifically, Essentia billed the incorrect number of units of service. As a result,
Essentia received overpayments totaling $865,291. Essentia attributed the overpayments to
billing system and clerical errors.

RECOMMENDATIONS

We recommend that Essentia:

   •   refund to the Medicare fiscal intermediary $865,291 in identified overpayments and

   •   ensure compliance with Medicare billing requirements.




                                                 i
ESSENTIA HEALTH DULUTH COMMENTS

In written comments on our draft report, Essentia concurred with our recommendations and
provided information on actions that it had taken or planned to take to address the
recommendations. Essentia’s comments are included in their entirety as the Appendix.




                                              ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Medicare Requirements for Outpatient Claims .............................................1
              Selected Drugs ...............................................................................................1
              Essentia Health Duluth ..................................................................................3

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................3
               Objective ........................................................................................................3
               Scope ..............................................................................................................3
               Methodology ..................................................................................................4

FINDINGS AND RECOMMENDATIONS ......................................................................4

          FEDERAL REQUIREMENTS ..................................................................................5

          INCORRECT BILLING ............................................................................................5

          RECOMMENDATIONS ...........................................................................................6

          ESSENTIA HEALTH DULUTH COMMENTS.......................................................6

APPENDIX

          ESSENTIA HEALTH DULUTH COMMENTS




                                                                    iii
                                             INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Requirements for Outpatient Claims

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains detail regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered. 1

Selected Drugs

The drugs we reviewed in this audit were baclofen, infliximab, trastuzumab, rituximab,
bortezomib, immune globulin, bevacizumab, epoetin alfa, and paclitaxel.

Baclofen

Baclofen is an injectable drug used both as a muscle relaxer and to treat muscle symptoms
caused by multiple sclerosis, including spasm, pain, and stiffness. Medicare requires providers
to bill one service unit for each 10-milligram injection of baclofen. The HCPCS code for this
drug is J0475 and is described as “Injection, baclofen, 10 [milligrams].”

Infliximab

Infliximab is an injectable drug used to treat rheumatoid and psoriatic arthritis, ulcerative colitis,
Crohn’s disease, and ankylosing spondylitis. Medicare requires providers to bill one service unit
for each 10-milligram injection of infliximab. The HCPCS code for this drug is J1745 and is
described as “Injection, infliximab, 10 [milligrams].”

Trastuzumab

Trastuzumab is an injectable drug used to treat breast cancer that has progressed after treatment
with other chemotherapy. Medicare requires providers to bill one service unit for each
10-milligram injection of trastuzumab. The HCPCS code for this drug is J9355 and is described
as “Injection, trastuzumab, 10 [milligrams].”



1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


                                                        1
Rituximab

Rituximab is an injectable drug used to treat non-Hodgkin’s lymphoma, chronic lymphocytic
leukemia, and symptoms of adult rheumatoid arthritis. Medicare requires providers to bill one
service unit for each 100-milligram injection of rituximab. The HCPCS code for this drug is
J9310 and is described as “Injection, rituximab, 100 [milligrams].”

Bortezomib

Bortezomib is an injectable drug used to treat multiple myeloma and mantle cell lymphoma.
Medicare requires providers to bill one service unit for each 0.1-milligram injection of
bortezomib. The HCPCS code for this drug is J9041 and is described as “Injection, bortezomib,
0.1 [milligrams].”

Immune Globulin

Immune globulin is an injectable drug used to treat primary immune deficiency conditions (e.g.,
chronic inflammatory demyelinating polyneuropathy). Medicare requires providers to bill one
service unit for each 500-milligram injection of immune globulin. The HCPCS code for this
drug is J1566 and is described as “Injection, immune globulin, intravenous, lyophilized (e.g.
powder), not otherwise specified, 500 [milligrams].”

Bevacizumab

Bevacizumab is an injectable drug used to treat a certain type of brain tumor as well as cancers
of the kidney, lung, colon, and rectum. Medicare requires providers to bill one service unit for
each 10-milligram injection of bevacizumab. The HCPCS code for this drug is J9035 and is
described as “Injection, bevacizumab, 10 [milligrams].”

Epoetin Alfa

Epoetin alfa is an injectable drug used to treat anemia. Medicare requires providers to bill one
service unit for each 1,000 units of epoetin alfa. The HCPCS code for this drug is J0885 and is
described as “Injection, epoetin alfa (for non-esrd [end-stage renal disease] use), 1000 units.”

Paclitaxel

Paclitaxel is an injectable drug used to treat certain types of cancer (e.g., ovarian cancer and
AIDS-related Kaposi’s sarcoma). Medicare requires providers to bill one service unit for each
30-milligram injection of paclitaxel. The HCPCS code for this drug is J9265 and is described as
“Injection, paclitaxel, 30 [milligrams].”




                                                2
Essentia Health Duluth

Essentia Health Duluth (Essentia) is an acute-care hospital located in Duluth, Minnesota.
Essentia’s claims are processed and paid by Noridian Administrative Services, LLC (Noridian),
the Medicare Part A fiscal intermediary.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Essentia billed Medicare for injections of selected drugs
in accordance with Federal requirements.

Scope

We reviewed $1,261,769 in Medicare payments to Essentia for 131 line items that we selected as
potentially at risk for billing errors during our audit period (January 1, 2008, through
April 30, 2011). These line items consisted of:

       •   78 line items for baclofen totaling $890,124,

       •   36 line items for infliximab totaling $272,608, 2

       •   2 line items for trastuzumab totaling $31,565,

       •   3 line items for rituximab totaling $21,511,

       •   8 line items for bortezomib totaling $16,809, 3

       •   1 line item for immune globulin totaling $13,307,

       •   1 line item for bevacizumab totaling $12,564,

       •   1 line item for epoetin alfa totaling $2,452, and

       •   1 line item for paclitaxel totaling $829.

We identified these payments through data analysis.

We did not review Essentia’s internal controls applicable to the 131 line items because our
objective did not require an understanding of controls over the submission of claims. Our review
allowed us to establish reasonable assurance of the authenticity and accuracy of the data obtained

2
    For the 36 line items for infliximab, Essentia billed Medicare in accordance with Federal requirements.
3
    For the eight line items for bortezomib, Essentia billed Medicare in accordance with Federal requirements.


                                                            3
from the National Claims History file for our audit period, but we did not assess the
completeness of the file.

Our fieldwork included contacting Essentia, located in Duluth, Minnesota.

Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   used CMS’s National Claims History file to identify paid Medicare claims for baclofen,
       infliximab, trastuzumab, rituximab, bortezomib, immune globulin, bevacizumab, epoetin
       alfa, and paclitaxel during our audit period;

   •   used computer matching, data mining, and analysis techniques to identify line items
       potentially at risk for noncompliance with Medicare billing requirements;

   •   identified 131 line items totaling $1,261,769 that Medicare paid to Essentia;

   •   contacted Essentia to determine whether the information conveyed in the selected line
       items was correct and, if not, why the information was incorrect;

   •   reviewed documentation that Essentia furnished to verify whether each selected line item
       was billed correctly;

   •   calculated overpayments using corrected payment information processed by Noridian;
       and

   •   discussed the results of our review with Essentia.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

For 87 of the 131 line items reviewed, Essentia did not bill Medicare in accordance with Federal
requirements. Specifically, Essentia billed the incorrect number of units of service. As a result,
Essentia received overpayments totaling $865,291. Essentia attributed the overpayments to
billing system and clerical errors.




                                                4
FEDERAL REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509, requires
hospitals to report claims for outpatient services using HCPCS codes.

Section 1833(e) of the Act states: “No payment shall be made to any provider of services …
unless there has been furnished such information as may be necessary in order to determine the
amounts due such provider … for the period with respect to which the amounts are being
paid ….”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 4,
section 20.4, states: “The definition of service units … is the number of times the service or
procedure being reported was performed.”

The Manual, chapter 17, section 90.2.A, states: “It is … of great importance that hospitals
billing for [drugs] make certain that the reported units of service of the reported HCPCS code are
consistent with the quantity of a drug … that was used in the care of the patient.” If the provider
is billing for a drug, according to chapter 17, section 70, of the Manual, “[w]here HCPCS is
required, units are entered in multiples of the units shown in the HCPCS narrative description.
For example, if the description for the code is 50 mg, and 200 mg are provided, units are shown
as 4 ….”

Chapter 1, section 80.3.2.2, of the Manual states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”

INCORRECT BILLING

For 87 line items reviewed, Essentia billed Medicare for the incorrect number of units of service:

   •   For the 78 line items for baclofen, Essentia billed the incorrect number of units of
       service. Rather than billing from 2 to 8 service units, Essentia billed from 16 to 80
       service units. The incorrect billing resulted in overpayments totaling $802,239.

   •   For the two line items for trastuzumab, Essentia billed the incorrect number of units of
       service. Rather than billing 15 and 38 service units, Essentia billed 154 and 381 service
       units, respectively. The incorrect billing resulted in overpayments totaling $28,899.

   •   For the three line items for rituximab, Essentia billed the incorrect number of units of
       service. Rather than billing from 6 to 8 service units, Essentia billed 14 service units for
       2 line items and 16 service units for the remaining line item. The incorrect billing
       resulted in overpayments totaling $12,285.

   •   For the one line item for immune globulin, Essentia billed the incorrect number of units
       of service. Rather than billing 48 service units, Essentia billed 481 service units. The
       incorrect billing resulted in an overpayment of $12,161.



                                                 5
   •   For the one line item for bevacizumab, Essentia billed the incorrect number of units of
       service. Rather than billing 120 service units, Essentia billed 240 service units. The
       incorrect billing resulted in an overpayment of $6,721.

   •   For the one line item for epoetin alfa, Essentia billed the incorrect number of units of
       service. Rather than billing 30 service units, Essentia billed 331 service units. The
       incorrect billing resulted in an overpayment of $2,230.

   •   For the one line item for paclitaxel, Essentia billed the incorrect number of units of
       service. Rather than billing 12 service units, Essentia billed 136 service units. The
       incorrect billing resulted in an overpayment of $756.

In total, Essentia received overpayments of $865,291. Essentia attributed the overpayments to
billing system and clerical errors.

RECOMMENDATIONS

We recommend that Essentia:

   •   refund to the Medicare fiscal intermediary $865,291 in identified overpayments and

   •   ensure compliance with Medicare billing requirements.

ESSENTIA HEALTH DULUTH COMMENTS

In written comments on our draft report, Essentia concurred with our recommendations and
provided information on actions that it had taken or planned to take to address the
recommendations. Essentia’s comments are included in their entirety as the Appendix.




                                                 6
APPENDIX
                                                                                                 Page 10f3


        APPENDIX: ESSENTIA HEALTH DULUTH COMMENTS 





         Here w iU, you




June 1, 2012




Lori A. Ahlstrand
Reg ional Inspector General for Audit Services
Department of Health and Human SeNices
Office of Audit SeNices, Region IX
90- th Street, Suite 3-650
San Francisco, CA 94103

Re: 	   Essentia Health Duluth
        Provider Number 240019
        Report Number: A-09-12-02021

Dear Ms.. Ahlstrand:

Essentia Health Duluth ("Essentia") appreciates the opportunity to respond to the
Department of Health and Human SeNices, Office of Inspector General (OIG) draft
report titled "Rev iew of Med icare o.utpatient Billing for Selected Drugs at Essentia
Health Duluth ."

The draft report recommends that Essentia refund to Medicare the identified
overpayments and ensure compliance with Medicare bHling requirements. Essentia
concurs with these recommendations, has already refunded the identified
overpayments, and has taken steps to prevent similar billing system and clerical errors
from occurring in the future .

Background

On May 17,2011, Essentia received a ietterfrom the OIG's Office of Audit Services
(OAS) requesting a self review of 124 specifi.ed line items. As noted in the draft report,
OAS selected the line items for review after determining that the line items were
"potentially at risk for billing errors" during the audit period January 1, 2008 through April
30, 2011.

Essentia conducted the requested self-review and submitted its results to OAS on June
6, 2011. Later, on July       2011. Essentia received a request by the OAS to seW-review
an additional 7 specified line items. Essentia conducted this self-review and provided
the results of the additional review on Ju ly 26 , 2011.
                                                                                                 Page 2 of3




Concurrence with the Report's Recommendations

The conclusions reached in the OIG draft report are consistent with the conclusions
reached by Essentia through its management of the requested self-reviews. The draft
report makes two recommendations, with whi,ch Essentia concurs, as discussed more
fully below.

Recommendation 1: "refund to the Medicare fiscal intermediary $865,291 in identified
overpayments.  II




During the self-review process, Essentia refunded the identified overpayments
associated with 87 of the 131 reviewed line items through the normal claims correction
process. Essentia provided OAS with documentation to verify the refunds for all line
items.

Due to the findings above, Essentia initiated a self-review of additional claims for the
selected drugs to ensure accurate billing. Steps have been taken to identify, review and
refund any additional overpayments discovered to ensure billing in accordance with
Federal requirements.

Recommendation 2: "ensure compliance with Medicare billing requirements.       II




Essentia concurs with this recommendation .. Since the time period covered by this
review, Essentia has continued it' s efforts to ed ucate employees about the use of
HCPCS codes and the use of our information technology systems to assist with efforts
to ensure proper unit billing.

Specifically, it was determined that a system set up between our pharmacy and billing
systems resulted in the erroneous reporting of drug units for selected drugs. Essentia
converted to a new billing system on July 31 2010. After the conversion, Essentia
                                             J


monitored 100% of pre-billed claims for injections of selected drugs for a period of time.
In addition, Essentia implemented billing system edits to identify cla ims with unlikely
drug units for review and co rrection as needed.

in addition, Essentia completes regularly sched uled interna l compliance reviews of its
billing practices and provides concurrent education and feedback. The Organizational
Integrity & Compliance Department will include a review of outpatient billing for drugs in
a future work plan.




                                                                                             2
                                                                                           Page 3 of3




Conclusion

Essentiais committed to making a healthy difference in the lives of our patients through
excellence in clinical care and operations. To support this commitment, Essentia
maintains an active and comprehensive Organizational Integrity & Compliance program,
and is committed to the prevention, detection and correction of compliance issues,
including codin g and billing matters. Essentia believes it has made the necessary
payment adjustments related to this review, and has taken steps to ensure compliance
with Medicare billing requirements related to this review, We appreCiate your
assistance in this matter, and your support of our compliance efforts.


Sincerely,
 , I  ~ "    / '\
VU~JLL
                    h

             L)!-E»JL/'"Yj ,?-""-'..~
Vicki Clevenger           J
Vice President,. Compliance & Audit/Chief Compliance Officer
Essentia Health
Organizational Integrity & Compliance I MCl203
502 East Second Street, Duluth. MN 55805
T: 218-786-3539 I F: 218-723-8170 I vclevenger@essentiahealth.org




                                                                                       3
